Apple Card Customer Agreement
Your Apple Card Rates
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

10.99% to 21.99% when you open your account, based on your
creditworthiness and other factors.
After that, this APR will vary with the market based on the Prime Rate.

How to Avoid Paying
Interest on Purchases

Your due date is at least 28 days after the close of each billing cycle. We
will not charge you any interest on purchases if you pay your entire
balance (adjusted for any financing plan) by the due date each month.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection Bureau
at https://www.consumerfinance.gov/learnmore

Fees
Annual Fee

None

Transaction Fees

None

Penalty Fees

None

Other Fees

None

HOW WE WILL CALCULATE YOUR BALANCE:
We use the daily balance method (including new Transactions).
PRIME RATE:
Variable APRs are based on the 3.25% Prime Rate as of 03/31/2020.

Page 1/19

Welcome to Apple Card!
Your Apple Card Account is issued by Goldman Sachs Bank USA, Salt Lake City Branch ("Bank," "we," "us," or "our") and this is a legal
agreement between you and us. By using or permitting others to use your Apple Card Account or adding your Card to Apple Wallet, you
are agreeing to be bound by this "Agreement," which includes this Apple Card Customer Agreement, together with your rates information,
which can be found in your Apple Wallet. Please read it carefully, and keep a copy for your records.
You can view, print, save and email current versions of the Agreement at any time from your Apple Wallet, or you can request this
Agreement by contacting us.
CONTACTING US
Except as explicitly set forth in this Agreement, you can contact us with questions or other matters about your Account by:
•
•
•

Using Messages;
Calling us toll-free at 877-255-5923; or
Writing to us at Lockbox 6112, P.O. Box 7247, Philadelphia, PA 19170-6112.

If you attempt to contact us by other means, we may not receive your message and may not be able to respond in a timely manner, or at
all.
CHANGES TO THIS AGREEMENT
Subject to applicable law, we may change any term of this Agreement, or add new provisions, at any time in our sole discretion. If we are
required by law to provide you with notice of any changes to this Agreement, we may do so in accordance with the "Electronic
Communications Agreement" we have already provided to you. Subject to applicable law, continued access to or use of your Account
following such notice shall be deemed to be your acceptance of such modified version of this Agreement. If you do not agree to this
Agreement or any revised version of this Agreement, we may require you to close your Account. When your Account is closed, (i) in cases
where you have a right to reject a change pursuant to applicable law, we will not apply that change to your Account; and (ii) in all other
cases, the revised version of this Agreement will apply while you repay your outstanding balance.
THIS AGREEMENT REQUIRES CLAIMS TO BE ARBITRATED AND FORBIDS CLASS ACTIONS UNLESS YOU (1) ARE SUBJECT TO THE
PROTECTIONS OF THE MILITARY LENDING ACT OR (2) EXERCISE YOUR RIGHT TO REJECT ARBITRATION AS PROVIDED IN THE
ARBITRATION PROVISION, WHICH IS SET FORTH AT THE END OF THIS AGREEMENT.

Important Definitions
This section defines some important terms used in this Agreement.
“Account” means the Apple Card consumer credit account opened for you under this Agreement.
“Business Day” means Monday through Friday, excluding all U.S. federal holidays.
“Card” means any physical, digital or virtual card, or other means, including your or any Participant's Apple ID, which may be used to
access the Account.
“Cash Advance and Cash Equivalents” means any cash advance and other cash-like transaction, including purchases of cash
equivalents such as travelers checks, foreign currency, or cryptocurrency; money orders; peer to peer transfers, wire transfers or similar
cash-like transactions; lottery tickets, casino gaming chips (whether physical or digital), or race track wagers or similar betting
transactions.
“Co-Owner” means each individual who has been approved by us to share the Account and who is individually and jointly responsible for
repaying all amounts due on the Account. Co-Owners are also individually and jointly responsible for complying with the terms of this
Agreement.
“Credit Limit” means the maximum amount of credit we allow on your Account.
“Eligible Device” means any device, including a Required Device, that is associated with your Apple ID, has internet access and has a
version of iOS that supports the use of Apple Card in your Apple Wallet, or has a version of iPadOS, watchOS, or macOS that supports the
use of Apple Card.
“iMessage” is Apple’s messaging service that allows you to send texts, photos, videos and audio messages from your Eligible Device.
“Messages” is an Apple messaging app that lets you send text messages and iMessages to anyone with an iOS, iPadOS, watchOS, or
macOS device using iMessage.
“Month” means each calendar month.
“Monthly Balance” means the total amount you must pay each month in order to maintain or regain a Grace Period. We also refer to this
amount using the name of each specific month. For example, your Monthly Balance for January may also be referred to as your January
Balance. The Monthly Balance includes any amounts subject to financing plans (such as Apple Card Monthly Installments) that must be
paid each month to maintain or regain a Grace Period. If you do not have a financing plan, your Monthly Balance will equal your Total
Balance.
“Monthly Statement” means the Account statement that we provide to you at the beginning of each month.

Page 2/19

“Total Balance” means the total amount owing on your Account at the end of a month. It will be shown on each Monthly Statement. The
Total Balance includes the total amount you owe subject to any financing plan or plans, including future payments that you are not yet
required to pay in order to maintain or regain a Grace Period.
“Participant” means a person who you and we authorize to make Transactions on your Account, but who is not responsible for repaying
any amounts due on the Account
“Purchase Transaction” means a purchase or lease of goods or services using your Account.
“Required Device” means an iOS device with a version of iOS installed that supports use of Apple Card in your Apple Wallet or an iPadOS
device that has a version of iPadOS (as applicable) that supports the use of Apple Card. A Required Device must have internet access and
a passcode enabled.
“Transaction” means any Purchase Transaction, any other transaction made using your Account, or any other adjustment transaction
made to your Account.
“You,” “your,” and “yours” mean each individual who has been approved by us for the Account. These terms include any Co-Owner of
the Account but do not include any Participant.

Your Account
This section explains the technical requirements needed to establish and use the Account, limitations on
your use of the Account, and your obligation to pay us amounts billed to your Account.
ELIGIBILITY
To be eligible for and to maintain the Account, you must:
•
•

Have an Apple ID associated with an iCloud account that is in good standing with Apple, as well as a valid email address
associated with your Apple ID; and
Have Apple's two-factor authentication turned on for your Apple ID that is associated with your iCloud account.

If you do not have a Required Device your use of the Account will be limited as described in the section below, "Using Your Account
Without a Required Device."
USING YOUR ACCOUNT
You may use your Account to make Transactions. You may not use or permit your Account to be used for:
•
•
•
•

Any illegal purpose, including in connection with unlawful domestic or international gambling websites or to purchase illegal goods
or services;
Cash Advances and Cash Equivalents;
Any purpose in any country or territory that is subject to economic sanctions administered and enforced by the U.S. Department of
the Treasury's Office of Foreign Assets Control (OFAC), or with any person or entity subject to these sanctions; or
Paying any debts to us.

If your Account is used for any Transaction not permitted by this Agreement, we will treat these Transactions as Purchase Transactions for
purposes of applying interest, and you are responsible for these Transactions and any related interest or Daily Cash Adjustments.
YOUR CREDIT LIMIT
We may increase or decrease your Credit Limit at any time, subject to applicable law.
We may authorize Transactions that, together with previously authorized Transactions, interest and other amounts billed to you, cause
your outstanding balance to exceed your Credit Limit. If we do, you will be responsible for paying that amount.
USING YOUR ELIGIBLE DEVICES & CARDS
At the time your Account is created, if you applied from a Required Device, a digital Card will automatically be added to your Apple Wallet
on the Required Device that you used to apply for an Account. You can use Cards to make Transactions on your Account. You can add a
Card to your Eligible Devices, but you must maintain a Required Device with a digital Card to manage your Account through Apple Wallet.
Without a Required Device, you will only be able to manage your Account by accessing card.apple.com or by contacting us by phone or
mail, and your Monthly Statement will only be provided to you electronically or by mail.
In order to ensure complete access to your Account and get required updates, you agree to maintain the latest version of iOS, iPadOS,
watchOS, or macOS (as applicable) on your Eligible Devices and Required Devices.
If you make unauthorized modifications to your Eligible Device, such as by disabling hardware or software controls (for example, through a
process sometimes referred to as "jailbreaking"), your Eligible Device may no longer be eligible to access or manage your Account. You
acknowledge that use of a modified Eligible Device in connection with your Account is expressly prohibited, constitutes a violation of this
Agreement, and could result in our denying or limiting your access to or closing your Account as well as any other remedies available to us
under this Agreement.
PHYSICAL COMPANION CARD
We may issue physical Cards that can be used to make Transactions on your Account. We reserve the right to reject any request for a
physical Card including any request that we deem unreasonable or abusive. Except as set forth in the section titled Sharing Your Account,
you may not obtain a physical Card for use by another person.
DECLINED TRANSACTIONS
Page 3/19

DECLINED TRANSACTIONS
We may decline Transactions for any reason, including suspected or actual fraud, violation of applicable law, your default under this
Agreement, or if you exceed your Credit Limit. We are not liable to you or anyone else if we do not authorize a Transaction, even if the
charge is within your Credit Limit or you are not in default. If we decline a Transaction, we may advise the person who attempted the
Transaction that it was declined. We are not responsible if anyone refuses to accept your Card.
RETURNS
When you return an item purchased under your Account, the merchant refund will appear as a credit on your Account along with a charge
to reverse any related Daily Cash that you had previously earned.
PROMISE TO PAY
You promise to pay us all amounts charged to your Account under this Agreement, including all Transactions, interest and other amounts
billed to you.
PROTECTING YOUR ACCOUNT INFORMATION, CREDENTIALS, AND ELIGIBLE DEVICES
You are solely responsible for maintaining the security of any Cards, Eligible Devices and their passcodes, Apple IDs, and any other
authentication credentials used in connection with your Account (collectively, "Credentials"). If you authorize or allow anyone else to use
your Account (e.g., by providing your physical Card or the passcode to your Eligible Device, allowing a third party to set up Face ID or add
their fingerprint to use Touch ID, authorizing a Participant to use your Account, or otherwise providing any of your Credentials to a third
party), the person may be able to make Transactions using your Account, and you will be liable for all Transactions made on your Account
by that person.
YOUR LIABILITY FOR UNAUTHORIZED TRANSACTIONS
Contact us IMMEDIATELY if you believe any physical Card or any Eligible Device with a Card has been lost or stolen, any Credentials have
been compromised, or your Account has been accessed without your permission. You will not be liable for any unauthorized transactions
made on your Account.
TRANSACTIONS MADE IN FOREIGN CURRENCIES
Transactions, returns and credits made in a currency other than U.S. dollars will be converted into U.S. dollars. We do not add any foreign
exchange rate fee to these Transactions. The conversion will be performed by Mastercard International, the payment network associated
with your Account (the "Network"). The Network follows its own methods for conversions that are subject to change. The conversion will
occur on the day the Transaction, return or credit is processed by the Network, which may be different than the date of the Transaction
return or credit. As a result, the conversion rate may differ from the rate as of a Transaction date or the date a Transaction is posted on
your Account.
NETWORK BENEFITS
The Network makes benefits available with your Account that are not part of this Agreement and are subject to change or cancellation.
Details about Network benefits can be found in Apple Wallet or by reviewing card.apple.com.

Sharing Your Account
This section explains your rights and responsibilities if you share the Account with any Co-Owner or permit one or more Participants to use
the Account.
We may offer you the ability to share the Account with any Co-Owner and/or permit one or more Participants, subject to our approval and
any conditions that we may require including that all Co-Owners and Participants be part of the same Apple Family Sharing Group. An
"Apple Family Sharing Group" is a technology platform provided by Apple, Inc. (“Apple”) that allows you to share access to various
Apple services as well as Apple Card with other individuals. You can share your Apple Card with anyone who is age 13 or older by first
adding them to your Apple Family Sharing Group. Sharing the Account requires the latest version of iOS, iPadOS, watchOS, or macOS (as
applicable) on Eligible Devices and Required Devices.
Co-Owners include each and every individual who has been approved by us to share the Account and who is individually and jointly
responsible for repaying all amounts due on the Account. Participants are individuals who are authorized by an owner or Co-Owner to
make Transactions on the Account, but who are not responsible for repaying any amounts due on the Account.
CO-OWNED ACCOUNT
If you share the Account with any Co-Owner, your Account is a “Co-Owned Account.” The following provisions apply if the Account is a
Co-Owned Account:

•

Each Co-Owner is jointly and severally responsible for paying us all amounts due on the Account, even if one Co-Owner is unable

Page 4/19

•
•
•

•

•

•
•

•
•

Each Co-Owner is jointly and severally responsible for paying us all amounts due on the Account, even if one Co-Owner is unable
or unwilling to pay.
Unless otherwise required by law, we may contact any Co-Owner individually about the Account and any notice or communication
from us will be effective for the Account when provided to any Co-Owner.
Any Co-Owner's requests and instructions will apply to the Account. Any instruction or consent provided by a Co-Owner may be
applied to the Account and will be applicable to all Co-Owners and may affect all Participants. For example, we will honor a CoOwner's requests to increase the Credit Limit (if the Account is eligible), add a Participant, redeem Daily Cash, request Account
information, update information provided to us, receive a credit balance refund, and exercise any other rights under this
Agreement. If we receive different or inconsistent requests or instructions from Co-Owners, we may accept or reject any request
or instruction from any Co-Owner in our sole discretion. We may also choose to not obtain consent from all Co-Owners.
Co-Owners may have access to information about each other’s use of the Account. If you used the Account as an individual before
sharing it as a Co-Owned Account, that information will also be available to any Co-Owner. For example, Co-Owners may receive
information about your Transaction history, payment activity, Payment Source Accounts, disputes, participation in relief
opportunities provided by us, and what we have reported to credit bureaus. Co-Owners may also access any Monthly Statement or
other document relating to the Account (for example, historical information and Monthly Statements about a Co-Owner's individual
Apple Card account before they agreed to a Co-Owned Account).
Each Co-Owner agrees that the other Co-Owner on the Account is their agent. Each Co-Owner also agrees to be the agent of the
other Co-Owner on the Account. Each Co-Owner has full authority to make payments on each other Co-Owner's behalf from each
Co-Owner's Payment Source Account. Each Co-Owner also agrees that we may rely upon any Co-Owner’s instructions with
respect to the time and amount of an authorized payment.
DO NOT ADD A PAYMENT SOURCE ACCOUNT IF YOU DO NOT WANT YOUR CO-OWNER TO AUTHORIZE PAYMENTS FROM
SUCH ACCOUNT ON YOUR BEHALF.
A Co-Owner may not remove themselves or any Co-Owner from a Co-Owned Account. However, a Co-Owner may request to
close the Co-Owned Account and then request a new individual account, subject to our eligibility criteria in effect at the time. If a
Co-Owner obtains a separate account, the Co-Owned Account will be closed. Co-Owners will remain responsible for any balances
owed on the closed Co-Owned Account.
The information about the Account that we report to credit bureaus will be reported for each Co-Owner as well as Participants if
they are being reported on the Account.
When the Account is first shared as a Co-Owned Account, you agree and understand that we may continue to process any
recurring payments you have authorized from your Payment Source Account(s) and that the sharing of the Account has no impact
on any existing payment authorization. We may also choose to terminate any or all existing payment authorizations. If both CoOwners have recurring payment authorizations in effect at the time the Account is first shared as a Co-Owned Account, you agree
that we may choose to keep one Co-Owner’s payment authorization in effect and terminate the other Co-Owner’s payment
authorization. If we do so, we may also choose which Co-Owner’s payment authorization will remain in effect and which Co-Owner’
s payment authorization will terminate. We will provide notice to each Co-Owner of this decision when the Account is shared as a
Co-Owned Account. You understand that you have the right to receive at least 10 days’ notice before we process any payment
from your Payment Source Account if the payment varies in amount from the preauthorized amount or from the most recent
payment made. If you have authorized recurring payments in the amount of your Account’s Minimum Payment Due or the Monthly
Balance, you agree that we need not provide you such notice for the first payment that is initiated from your Payment Source
Account after your Account is shared as a Co-Owned Account if the amount of such payment is between $0 and the Monthly
Balance due on your Account before it was shared as a Co-Owned Account, as shown on the Monthly Statement issued before
your Account is shared. In no instance will this payment be more than the Monthly Balance due on your Account before it was
shared as a Co-Owned Account, as shown on the Monthly Statement issued before your Account is shared.

PARTICIPANT ELIGIBILITY
In order to be a Participant, a person must:
•
•
•
•
•
•

Be at least 13 years of age or older;
Be a citizen or lawful resident of the United States;
Have an Apple ID associated with an iCloud account that is in good standing with Apple;
Have a valid email address associated with the Apple ID;
Have Apple’s two-factor authentication turned on for the Apple ID; and
Have an Apple device that has a version of iOS or iPadOS that supports the use of the Account and sharing your Account, has
internet access, has a passcode enabled, and is associated with the Apple ID.

We may ask you to provide identifying information about the person you would like to add as a Participant. You must have authority or
permission from a Participant to share that information with us and if you share such information you are representing that you do.
PARTICIPANT USE OF THE ACCOUNT
You authorize anyone who you add as a Participant to use your Account, and you authorize us to provide one or more Cards to them for
purposes of making Transactions. You are responsible for any Participant’s use of the Account and for paying us all amounts due on the
Account. The terms of this Agreement apply to each Participant’s use of the Account. You agree to share this Agreement with your
Participant and explain that their use is subject to its terms.
We may discuss and share information about the Account with Participants as appropriate. We may also accept and rely upon any
Participant’s instructions and requests involving the Participant’s use of the Account. For example, we may allow a Participant to access
information about Transactions, order a physical Card, report lost or stolen Cards, and remove themselves from the Account. However,
Participants cannot provide instructions that apply to your use of the Account. For example, we may not allow a Participant to request
changes to your Credit Limit, add or remove other Participants, or close the Account.
Information about your Account that we report to credit bureaus may also be reflected in credit bureau reports for your Participants.
Participants who are 18 years or older may request to be reported to credit bureaus on the Account. If a Participant is being reported to
credit bureaus on the Account, they will be identified as an authorized user. In order to comply with applicable law, if you are a spouse of a
Participant (regardless of their age), or later become a spouse of a Participant, you or the Participant must inform us of this fact so that we
may report Account information in the name of the spouse Participant to consumer reporting agencies.

Page 5/19

DAILY CASH
You request, and we agree, that any Daily Cash that you earn from any Participant’s use of the Account will be made available by us, on
your behalf, to be used by that Participant. You will be responsible for any Daily Cash Adjustment or Daily Cash Correction Amount that is
associated with any Participant’s use of the Account and that is charged to your Account. For more information about Daily Cash, see the
Daily Cash Program section below.
REMOVING A PARTICIPANT
You may remove a Participant from the Account by contacting us and following any instructions that we provide. You are responsible for
all charges made by the Participant and for returning or recycling the Participant’s physical Cards and preventing the Participant from
continuing to access the Account. We may remove a Participant at any time and without advance notice. Participants may also request to
remove themselves from the Account.

Daily Cash Program
This section explains how Daily Cash is earned and received
in connection with your Account.
HOW YOU EARN DAILY CASH
Earning Daily Cash
You will earn Daily Cash on every Purchase Transaction posted to your Account as described below:

Transaction type

Daily Cash percentage

Goods or services purchased directly from
Apple. These include purchases from Apple
retail stores, the Apple online store, iTunes,
Apple Music and other Apple-owned
properties.

3% of the transaction amount

App Store purchases (including In-App
*

Purchases ).
Apple Pay Purchase Transactions

2% of the transaction amount

All other Purchase Transactions

1% of the transaction amount

Purchase Transactions at Bonus Daily Cash
Merchants

% of the transaction amount described at
www.apple.com/apple-card

*

"In-App Purchases" means content, services or functionality that can be bought for use in apps on Apple devices, including premium
content, digital goods and subscriptions.
From time to time, you may earn Bonus Daily Cash on Purchase Transactions at select merchants ("Bonus Daily Cash Merchants"). The
list of Bonus Daily Cash Merchants, the percentage (%) of Daily Cash earned with Purchase Transactions at each Bonus Daily Cash
Merchant, the required payment method, and any terms and exclusions can be found at www.apple.com/apple-card. Bonus Daily Cash
Merchant offers can be changed or cancelled at any time and without advance notice.
If any Purchase Transaction is covered by more than one Transaction type, only the highest Daily Cash percentage will apply. For example,
a Purchase Transaction at an Apple-owned retail store using Apple Pay would earn 3% Daily Cash, but would not also earn the 2% Daily
Cash for Apple Pay transactions.
You may earn Daily Cash as long as your Account remains open and in good standing, except as otherwise provided in this Agreement.
Any accrued but unredeemed Daily Cash will not earn or accrue any interest, and we do not consider this Daily Cash when calculating the
interest or Minimum Payment Due on your Account.
HOW YOUR DAILY CASH WILL BE CALCULATED
Daily Cash will be calculated based on the amount of each Purchase Transaction posted to your Account, multiplied by the above-listed
percentage corresponding to the Transaction type. Daily Cash will be rounded to the nearest cent but will not be less than one cent.

Page 6/19

EXCEPTIONS
You will not earn 3% Daily Cash for purchases of Apple goods and services that are sold through third party retail or online stores,
including any Apple authorized resellers, or if you make your payment through a third-party wallet.
You will not earn Daily Cash for transactions that are not permissible under this Agreement or on purchases made for purposes of resale.
HOW YOU RECEIVE DAILY CASH
Apple Cash
Apple Cash is a prepaid card in Apple Wallet that can be used to send money to friends, and to make purchases with Apple Pay in stores,
apps and websites.
If you have an Apple Cash account that is active and in good standing, we will automatically transfer Daily Cash earned by use of your Card
to your Apple Cash account when the Purchase Transaction for which you earned the Daily Cash is posted to your Account (an
“Automatic Transfer”).
Apple Cash accounts are currently provided by a third-party bank and are subject to separate terms and conditions. You agree that we
may share information about your Daily Cash program activity with the Apple Cash provider in order to support the program by which your
Daily Cash is transferred to your Apple Cash account. We are not responsible for, and will have no liability whatsoever arising from, your
use of Apple Cash or any other products or services offered by the third-party bank.
Credit to Your Account
If you do not have an Apple Cash account that is active and in good standing, or any attempted transfer to your Apple Cash account fails
for any reason, we will not make Automatic Transfers of your Daily Cash, and any Daily Cash you earn will accrue without Automatic
Transfer.
•

If you have an accrued but unredeemed Daily Cash balance, you can redeem all of your accrued but unredeemed Daily Cash as a
credit to your Account. Daily Cash redemptions as a credit to your Account are considered payments.

•

If you later establish an Apple Cash account that is active and in good standing, then any accrued but unredeemed Daily Cash
balance will be transferred to your Apple Cash account no later than your next posted Purchase Transaction, and Automatic
Transfers will begin with your next posted Purchase Transaction.

If you have an accrued but unredeemed Daily Cash balance at the time your Account is closed, we will automatically apply that balance as
a credit to your Account, unless prohibited by law, in which case we will pay you the amount of the Daily Cash balance via electronic funds
transfer or by sending you a check.
DAILY CASH OF CO-OWNERS AND PARTICIPANTS
Daily Cash earned on your Account belongs to you. However, if your Account is a Co-Owned Account and/or if there are any Participants
on your Account, you hereby request that we make your Daily Cash available to the individual whose Card was used to make the Purchase
Transaction(s) that earned Daily Cash. For example, if a Participant has an Apple Cash account that is active and in good standing, we will
transfer Daily Cash earned on Purchase Transactions made with that Participant’s Card to that Participant’s Apple Cash account, on your
behalf. If a Participant is under the age of 18, Daily Cash may be transferred to an Apple Cash account established on their behalf by a
parent or guardian. If a Participant does not have an Apple Cash account that is active and in good standing, Daily Cash will accrue and
may be redeemed by you or the Participant as a credit to your Account by contacting us.
DAILY CASH ADJUSTMENTS AND CORRECTIONS
If a credit is issued to your Account as provided below, we will charge your Account an amount up to the amount of any Daily Cash you
accrued for the transaction(s) related to the credit (a “Daily Cash Adjustment”). A Daily Cash Adjustment can be incurred in any of the
following circumstances:
•
•
•

If you make a return or a merchant otherwise credits your Account;
If you successfully dispute a transaction for which you initially earned Daily Cash, which results in a permanent credit being
applied to your Account; or
If you are violating the terms of this Daily Cash program, or if we believe you are abusing or gaming this Daily Cash program.

Example:
You made a purchase of $100 and earned $3 of Daily Cash which was transferred to your Apple Cash account. If you
later return that purchase, we will charge your Account a Daily Cash Adjustment of $3.

Daily Cash Adjustments are charged as one or more Transactions to your Account, reflected on your Monthly Statement(s), and any
unpaid Daily Cash Adjustment amount remaining on your Account at the end of that month will be due in full as part of the Minimum
Payment Due on the next payment due date. Daily Cash Adjustments incurred as a result of a return or any other credit from a merchant
with whom you have made multiple Purchase Transactions may be charged as separate Transactions and/or may appear on a future
Monthly Statement instead of the Monthly Statement on which the return or merchant credit is listed.
We will not charge interest on any Daily Cash Adjustment billed to your Account. If you fail to pay any Daily Cash Adjustment by the
payment due date listed on your Monthly Statement, your Account will be considered delinquent and we may exercise our rights and
remedies under this Agreement. If you have a Daily Cash Adjustment at the time your Account is closed, you will remain obligated to pay
such amount.
Page 7/19

In addition, if we mistakenly provide you with Daily Cash in an amount greater than you were entitled to, you agree that we can, at our
discretion, recover from your Apple Cash account the excess amount that we transferred (a “Daily Cash Correction Amount”), withhold
future Daily Cash from accruing on your Account until you have earned the Daily Cash Correction Amount, or seek a return of the Daily
Cash Correction Amount from you. If you have a Daily Cash Correction Amount at the time your Account is closed, you will remain
obligated to pay such amount.
DAILY CASH PROGRAM ERRORS; DISPUTES
If you believe that you are eligible for Daily Cash that you have not received, or that you received Daily Cash that was calculated
erroneously, please contact us immediately. To help us resolve any errors, we may require you to submit documentation, which may
include copies of receipts, invoices or purchase orders. If we or the Apple Cash provider fail to credit, improperly deny, or improperly
reverse Daily Cash that you are entitled to, then, subject to applicable law, your only remedy will be the issuance of the improperly denied
or reversed Daily Cash, if available, or another alternative comparable benefit as we may determine in our sole discretion. Neither we, the
Apple Cash provider, nor Apple, nor any of our respective affiliates will have any other or additional liability to you or any other person
whatsoever for any such errors.
TERMINATION AND/OR SUSPENSION OF YOUR DAILY CASH
Misuse of the Daily Cash Program
It will be considered a misuse of the Daily Cash program if we identify any:
•
•
•
•

Potentially fraudulent, abusive or suspicious activity with respect to the Daily Cash program, your Account, or an Apple Cash
account;
Gaming behavior;
Reselling activity; or
Violation of the terms of an Apple Cash account.

Effects of Misuse
Any misuse of the Daily Cash program is a violation of this Agreement and may also result in:
•
•

The forfeiture of any Daily Cash; or
The suspension or termination of your ability to earn or redeem Daily Cash.

Your ability to participate in the Daily Cash program ends when your Account is closed.
CHANGES TO THE DAILY CASH PROGRAM
We may change the requirements, amounts, transaction categories, redemption process, frequency of redemptions, or any other aspect of
the Daily Cash program at any time. We reserve the right to end the Daily Cash program at any time for any reason.

Annual Percentage Rate, Interest Charges & Minimum Payment Due
This section explains how we determine your APR and DPR, how we calculate the interest you might owe each month,
how you can avoid interest in a given month and how we calculate the minimum payment due each month.
"Annual Percentage Rate" or "APR" is the term used for any interest rate on your Account.
"Daily Periodic Interest Rate" or "DPR" is the term used for the APR that applies to your daily balance on your Account.
"Margin" is the term used for the percentage rate we add to the Prime Rate to determine your APR.
See your Apple Wallet for the APR, DPR, and Margin.
HOW WE DETERMINE INTEREST RATE(S)
How We Determine the Applicable APR
For Purchase Transactions, the APR equals the Prime Rate plus the Margin that applies to your Account.
Variable APRs may increase or decrease each month if the Prime Rate changes. Your Purchase Transactions APR is a variable rate. If the
Prime Rate changes, the new variable APRs will take effect as of the first day of the next month and apply to existing and new balances.
Any increase in the Prime Rate may result in an increase to your interest and Minimum Payment Due. APRs will never exceed the maximum
rates permitted by applicable law.
The "Prime Rate" in effect for a given month is the highest U.S. Prime Rate published in the print edition of The Wall Street Journal (WSJ)
on the last day of the prior month that the Prime Rate was published. If the WSJ does not publish the Prime Rate on that day, then we will
look to the last day before then that such rate was published. If the WSJ temporarily or permanently discontinues publishing the Prime
Rate or if the WSJ changes its definition of the Prime Rate, then we may substitute another publicly available index not within our control
and adjust the Margin, in our sole discretion, subject to applicable law. However, for the month of August 2019, the Prime Rate is equal to
the highest U.S. Prime Rate published in the "Money Rates" section of the print edition of The Wall Street Journal (WSJ) on August 2, 2019.

Page 8/19

Example:
On May 31 (which falls on a Business Day), the Prime Rate reported in the WSJ is 4.75%.
Assume the Margin for your Account is 13.25%.
To determine your APR for June, we add the Prime Rate to the Margin, which would be 18%.

We may from time to time offer you different APRs and different terms that will apply to specified Purchase Transactions or other balances
on your Account. Details will be provided at the time that these terms are offered to you.
How We Determine the Applicable DPR
The DPR for any given day during a month is equal to the applicable APR on that day divided by 365 (or 366 in leap years).

DPR = APR ÷ 365 (or 366 for leap years)

HOW WE DETERMINE YOUR DAILY BALANCE(S)
We determine the "Daily Balance" for each balance of your Account as follows:
•
•
•
•

We begin with the balance at the end of the prior day (excluding interest for that day); then
We add the prior day's interest; then
We add any new Transactions from that day (unless your Account qualifies for a Grace Period on New Transactions, as described
below); and then
We subtract any new payments or credits posted to your Account that day (and not already deducted from your Account as
provided below).

If any Daily Balance is less than zero, we treat it as zero. Additionally, if you had a Grace Period on New Transactions in the prior month,
we subtract all payments and credits that are posted within the current month as of the first day of the current month.

Assuming no Grace Period applies (for example, you do not pay your Total Balance in full), then:
Daily Balance = Prior day's closing balance + Prior day's interest + New Transactions - New payments and credits

HOW WE CALCULATE YOUR INTEREST
We use the “daily balance method (including new Transactions)” to calculate interest owed on each category of Transactions on your
Account each month. Under this method, we first calculate the daily interest for each day in the month. We do this by multiplying your DPR
by the “Daily Balance” of each category of Transactions for each day in the month. Different categories of Transactions may have different
APRs and DPRs. Purchase Transactions have the APR and DPR set forth in your Apple Wallet, and Daily Cash Adjustments have an APR
and DPR of zero. Then, to determine the total interest for the month, we add up the daily interest we calculated for each day in the month
and round to the nearest cent.

Interest = Sum of daily interest for each day in the month
Daily interest = daily balance × DPR

WHEN DOES INTEREST BEGIN TO ACCRUE
Interest will accrue on any Transaction beginning on the date that the Transaction occurs. However, you can avoid interest if a Grace
Period applies to your Account, as described below.
HOW TO AVOID INTEREST
The term "Grace Period" means a Grace Period on New Transactions or a Grace Period on the Total Balance, as applicable.
Grace Period on New Transactions
Your Account automatically has a "Grace Period on New Transactions" in a month where your Total Balance for the prior month is $0 or
a credit balance. Your Account will also obtain a Grace Period on New Transactions in a month if your Account has a Total Balance for the
prior month that is greater than $0 and you pay the Monthly Balance for the prior month on or before its payment due date. In a month in
which your Account qualifies for a Grace Period on New Transactions, we will not charge interest during that month on any new
Transactions that post to your Account during that month.

Page 9/19

Example:
On February 1, your Total Balance for January is $0. During February, you spend $1,000 in new Transactions.
On March 1, your Total Balance for February is $1,000. During March, you spend $750 in new Transactions. You also
make a payment of $1,000 on March 31.
The current month is now April.
•

Because the Total Balance for January was $0, your Account automatically had a Grace Period on New
Transactions during February and you avoided paying interest on the $1,000 in new Transactions during
February.

•

Because you paid the Total Balance of $1,000 for February in full by its payment due date, your Account had a
Grace Period on New Transactions during March, and, therefore, you avoided paying interest during March on
the $750 in new Transactions.

Grace Period on the Total Balance
You can avoid paying interest on the Total Balance or a portion of the Total Balance based on your payment activity. Your Account has a
"Grace Period on the Total Balance" when interest is not accruing on the Total Balance. Below we explain how you can maintain, lose and
regain the Grace Period on the Total Balance.
•
•

•

Initial Grace Period on the Total Balance: Your Account starts with a Grace Period on the Total Balance. You can retain this
Grace Period on the Total Balance by always paying your Monthly Balance by its corresponding payment due date.
Losing the Grace Period on the Total Balance: Your Account will lose the Grace Period on the Total Balance if you pay less than
the Monthly Balance by its corresponding payment due date. You will not pay interest on the portion of the Total Balance that you
paid during the month that you lose your Grace Period on the Total Balance.
Regaining the Grace Period on the Total Balance: If your Account has lost its Grace Period on the Total Balance, you can regain
it by paying the Monthly Balance by its corresponding payment due date. You will then only maintain the Grace Period on the Total
Balance in the following and each and every subsequent month by paying the Monthly Balance by its corresponding payment due
date.

Example:
You opened your account on February 14. On March 1, your Monthly Balance is $750. You will not be charged interest
for the $750 worth of Transactions from February. During March, you make $500 in new Transactions. You also make a
payment of $700 on March 31.
•

Because you only paid $700 of the $750 March Monthly Balance, you only avoided paying interest during the
month of March on the $700 that you paid. This means that during the month of March, you incurred interest on
the $50 in unpaid Monthly Balance. You also did not have a Grace Period on New Transactions and incurred
interest on the $500 in new Transactions.

Impact of Reversed Payments or Credits
If your Account had a Grace Period because of a payment you made and we posted to your Account, but then that payment is reversed,
you will lose the benefit of that Grace Period. As a result, we may charge you the interest you saved or would have saved because of the
reversed payment. If you want to have a Grace Period on New Transactions during a month when a payment made in that month is
reversed, you must pay before your next payment due date the entire Monthly Balance plus the amount of the reversed payment plus any
additional interest charged due to the reversed payment.

Example:
On March 1, your Total Balance is $100. During March, you make $75 in new Transactions. You also make a payment of
$100 on March 31.
On April 5, your previous payment of $100 is reversed due to insufficient funds.
•

Because you paid the March 1 Total Balance of $100 in full and on time, you had a Grace Period on New
Transactions during March, and, therefore, you avoided paying interest during the month of March on the $75 in
new Transactions.

•

Because your payment for the March 1 Total Balance was subsequently reversed, we can now bill you in April for
the interest you previously avoided in March on the $75 in new Transactions and on the $100 Total Balance from
your March 1 Monthly Statement.

HOW WE CALCULATE YOUR MINIMUM PAYMENT DUE
Page 10/19

HOW WE CALCULATE YOUR MINIMUM PAYMENT DUE
Before July 30, 2021, your “Minimum Payment Due” equals the greater of:
•
•

The sum of $25 and any past due amounts; or
The sum of (i) 1% of the Total Balance (excluding any Daily Cash Adjustment), plus (ii) any unpaid Daily Cash Adjustments billed to
your Account during that month, plus (iii) any interest billed to your Account during that month. The sum of these amounts is
rounded up to the nearest dollar, and then any past due amounts are added.

However, if the Total Balance is less than the above calculated amount, then the Minimum Payment Due equals the Total Balance.
If you accept a financing plan offer or offers for particular Transactions, such as Apple Card Monthly Installments, then the process below
determines your Minimum Payment Due:
•
•
•

First, we calculate the payment due for your balances that are not in a financing plan. We use the formula above to make this
calculation, but we subtract the financing plan balance or balances from the Total Balance.
Second, we add any monthly repayment amount calculated pursuant to any financing plan or plans (which will be an amount
disclosed to you and accepted by you, in connection with the plan or plans).
However, your Minimum Payment Due will never be greater than your Total Balance.

Starting July 30, 2021, your “Minimum Payment Due” equals the greater of:
•
•

The sum of $25 and any past due amounts; or
The sum of (i) 1% of the Total Balance (excluding any unpaid Daily Cash Adjustments), plus (ii) any unpaid Daily Cash Adjustments,
plus (iii) any interest billed to your Account during that month. The sum of these amounts is rounded up to the nearest dollar, and
then any past due amounts are added.

However, if the Total Balance is less than the above calculated amount, then the Minimum Payment Due equals the Total Balance.
If you accept a financing plan offer or offers for particular Transactions, such as Apple Card Monthly Installments, then the process below
determines your Minimum Payment Due:
•
•
•

First, we calculate the payment due for your balances that are not in a financing plan. We use the formula above to make this
calculation, but we subtract the financing plan balance or balances from the Total Balance.
Second, we add any monthly repayment amount calculated pursuant to any financing plan or plans (which will be an amount
disclosed to you and accepted by you, in connection with the plan or plans).
However, your Minimum Payment Due will never be greater than your Total Balance.

Making Payments
This section explains when you must pay us each month, how to pay us,
and how we apply those payments to your Account.
WHEN TO PAY
At the beginning of each month, we will send or provide a Monthly Statement reflecting activity on your Account that occurred since the
previous Monthly Statement, such as new Transactions, interest and Daily Cash Adjustments. It will also identify your Total Balance, your
Monthly Balance (if you do not have a financing plan, your Monthly Balance is equal to your Total Balance), the Minimum Payment Due and
the payment due date.
Your payment is due by 11:59 P.M. ET on the last calendar day of each month.
You must pay at least your Minimum Payment Due by the payment due date each month. You may pay all or part of the outstanding
balance on your Account at any time without penalty.
HOW TO PAY
You can make electronic payments through a Required Device (e.g., by using Apple Wallet or by selecting Wallet & Apple Pay) or at card.
apple.com. Electronic payments initiate electronic fund transfers (e.g., ACH or debit) from your (i) Apple Cash account or (ii) a bank
account(s) with a financial institution located in the U.S. (each, a "Payment Source Account").
When making payments:
•
•
•
•

Do not send us cash.
Pay only using U.S. dollars.
You should not pay more than your Account balance. We do not pay interest on credit balances.
Each day, you may make a total maximum of five (5) electronic payments on your Account.

PAYMENT AUTHORIZATION
Each time you authorize us to take an electronic payment from your Payment Source Account, you represent and warrant that you are
legally authorized to use such Payment Source Account. By providing us with your Payment Source Account information, you authorize us
to:
•
•
•

Retain this information for the purpose of initiating electronic payments based on your instructions;
Periodically make credits to any Payment Source Account, beginning with the most recently linked Payment Source Account that
has not been deleted; and
Correct any payment, credit, or account errors.

Page 11/19

When you authorize us to take an electronic payment from your Apple Cash account, you are also authorizing Apple Payments, Inc. to
transfer the payment amount from your Apple Cash account to Goldman Sachs Bank USA, Salt Lake City Branch. Your authorization will
continue until it is cancelled as described below, or when your Account is closed with a zero balance.
Payment Dates
If you authorize us to make a payment on a day other than a Business Day, we will credit your payment on the scheduled payment date but
we may pull the payment on or after the following Business Day.
th

th

st

If you authorize a payment for the 29 , 30 or 31 of a month, and the month does not have that many days, you are authorizing us to
take your payment on or after the last day of that month.
Payment Amounts and Adjustments
You can choose to make one-time or recurring payments. Apple Cash can only be used for one-time payments. We may adjust the amount
of your payment before processing it in the following ways:
•
•

•

•

•

To avoid creating a credit balance on your Account;
If you have scheduled a recurring payment for the amount of your Minimum Payment Due or Monthly Balance, your payment
amount may be reduced automatically based on payments, returns, and other credits to your Account that are posted by
11:59 P.M. ET on the day prior to the date of your scheduled payment. If an earlier payment is rejected, we may automatically add
that amount to your scheduled payment, but not in excess of the amount you authorized;
If you have scheduled a recurring payment for a fixed dollar amount, your payment amount will not be reduced automatically
based on payments, returns, and other credits to your Account. A recurring payment for a fixed dollar amount will always be
processed if you have a balance;
In all instances, if your Account balance on the scheduled payment date is $0 or less, then we will automatically cancel your
payment scheduled for that date. In the case of a recurring payment, your payment will automatically restart on the next scheduled
payment date on which your Account balance is greater than $0; or
In all instances, if a recurring payment is declined because of insufficient funds, then we will automatically turn off recurring
payments and you will have to set up a new recurring payment.

We will not adjust your payment to an amount greater than what you authorize.
Split Payments
You can choose to "split" your electronic payment between your Apple Cash account and your bank account. If you elect to do so, funds
will first be taken from your Apple Cash available balance, and if such funds are insufficient to pay off the full payment amount that you
have authorized, then we will withdraw the remaining funds from your designated bank account. You agree that we may receive
information about your Apple Cash account from the Apple Cash provider for purposes of supporting split payments.
Payment Cancellations
You can cancel a scheduled payment by contacting us. We must receive your cancellation request no later than 11:59 P.M. ET on the day
prior to the date of your scheduled payment. We may cancel your payment(s) if any prior payments from the associated Payment Source
Account are returned, or for any other reason we deem appropriate. We will provide you with notice of such cancellation.
WHEN WE CREDIT YOUR PAYMENTS
Electronic Payments
If you pay in accordance with the payment instructions detailed in this Agreement and in your Monthly Statement, we will credit your
payments as follows:
•
•

If you initiate a one-time payment using a Payment Source Account before 11:59 P.M. ET, we will credit the payment as of that
calendar day. Otherwise, we will credit your payment as of the next day.
If you set up recurring payments, we will credit each payment as of its scheduled payment date.

Non-conforming Payments
We may reject any payments that do not comply with our payment instructions set forth in this Agreement or on your Monthly Statement
(each a "Non-conforming Payment") in our discretion. If we accept a Non-conforming Payment, crediting your Account for the payment
may be delayed and may result in additional interest billed to your Account.
We may accept any Non-conforming Payments, late payments, partial payments or payments with restrictive endorsements, without losing
any of our rights, including our right to close your Account. We may deposit any payment you send us for less than the total outstanding
balance of your Account that you mark "paid in full" or with any similar language or otherwise seek to provide as full satisfaction of a
disputed amount. If we do, this payment will not fully satisfy the disputed amount or otherwise affect our rights to payment in full.
Credit Availability
After receiving a payment, we can immediately increase your available credit, or delay increasing the available credit on your Account for a
period of time. You can check the status of your available credit by going to your Apple Wallet, accessing Wallet & Apple Pay, online at
card.apple.com, or by contacting us.
HOW WE APPLY PAYMENTS, CREDITS AND REFUNDS
Subject to applicable law, when we receive a payment, including when you redeem Daily Cash as a credit, for your Account, we will apply:
•

Amounts up to your Minimum Payment Due in any manner we choose; and

•

Any amounts exceeding the Minimum Payment Due first to the balance with the highest APR, and then to balances with lower

Page 12/19

•

Any amounts exceeding the Minimum Payment Due first to the balance with the highest APR, and then to balances with lower
APRs (in descending order based on the applicable APR). This means that any Daily Cash Adjustment that has not been reflected
on a Monthly Statement will be paid last.

Refunds and other credits may be applied to your Account in any manner, and do not generally reduce your obligation to pay your
Minimum Payment Due.

Using Your Account Without a Required Device
This section explains the differences that apply if you use your Account without a Required Device.
For example, if you do not apply for or add Apple Card on a Required Device, this section applies.
If you are not using a Required Device, you will not have access to the full experience, functionality, and benefits of Apple Card. We call
this "Apple Line of Credit." The following provisions of this section will apply to your use of Apple Line of Credit:
•

•

•

•

•

•

You will be able to access card.apple.com to: (i) manage your Account; (ii) view your Monthly Statements; (iii) access a copy of
this Agreement; (iv) review your APR, DPR, and Margin; (v) view and manage earned Daily Cash; and (vi) make payments by
initiating electronic fund transfers from a Payment Source Account. If you do not have an Apple Cash account, Daily Cash can be
applied by you as a credit on your Account balance. To cancel a previously scheduled payment, please access card.apple.com or
contact us.
To be eligible for and maintain Apple Line of Credit, you must have: (i) an Apple ID associated with an iCloud account that is in
good standing with Apple, as well as a valid email address associated with your Apple ID; (ii) Apple's two-factor authentication
turned on for your Apple ID that is associated with your iCloud account; and (iii) a device that has a supported browser and is
capable of accessing HTML websites to view and retain documents in commonly used electronic formats, including by
downloading or emailing documents to an email account to which you have access. Supported browsers are Safari 7 or later,
Firefox 34 or later, Chrome 37 or later, Opera 24 or later, or Edge 83 or later.
You may use your Apple Line of Credit only to make certain Purchase Transactions at Apple Retail Locations or the Apple Online
Store that we authorize and permit. You will only earn and receive Daily Cash on permitted purchases of goods or services directly
from Apple. To earn and receive Daily Cash as otherwise described in this Agreement, you will need to use Apple Card with a
Required Device.
A Card will not be automatically added to Apple Wallet and you will not have access to a physical Card unless you add Apple Card
to a Required Device in the future. If you do, this section (“Using Your Account Without a Required Device”) will not apply and you
may then request a physical Card.
You will be able to contact us as provided for or required by this Agreement, but to contact the Bank using Messages you will need
to use an Apple device supporting Messages and send a Message to Apple, which will route you to the Bank for any Account
related questions.
Any written or electronic notice or communication we send to you will be effective as provided for elsewhere in this Agreement or
when it is made available to you through card.apple.com.

All other terms of this Agreement will apply to your use of the Account.

Account Default
This section explains when your Account will be in default and what
may happen when your Account is in default.
WHAT TRIGGERS A DEFAULT
The Account will be in default of this Agreement, to the extent permitted under applicable law, if:
•
•
•
•
•
•

You fail to pay any Minimum Payment Due on or before the applicable payment due date, or your Minimum Payment Due is
returned unpaid or cannot be processed;
You breach any term of this Agreement or any other agreement with us;
A Participant breaches any term of this Agreement or the Participant Terms of Use;
You file or become the subject of a bankruptcy or insolvency proceeding;
You give us any false, incomplete or misleading information; or
You become legally incapacitated.

WHAT IS THE EFFECT OF BEING IN DEFAULT
If the Account is in default, we may take any of the following actions to the extent permitted under applicable law:
•
•
•
•
•
•
•
•
•
•

Continue to charge you interest as long as you have an outstanding Account balance;
Lower your Credit Limit;
Decline or otherwise limit your ability to make Transactions;
Report information about your Account to the credit bureaus;
Begin collections activities;
Suspend or close your Account;
Remove any Participant from your Account;
Require you to immediately pay all or any portion of your total outstanding balance (this action may also be taken upon death);
If we retain an attorney who is not our salaried employee to collect amounts you owe, we may require you to pay for the court
costs and reasonable attorneys' fees that we actually incur; and/or
Take any other action permitted by law.

Suspending or Closing Your Account
Page 13/19

Suspending or Closing Your Account
This section explains when you may close your Account, when we may suspend or close your
Account, and what happens when your Account is closed.
BY YOU
You can, at any time, close your Account by contacting us.
BY US
We may suspend or close your Account, or suspend or cancel any feature on your Account, at any time and for any reason permitted
under applicable law.
EFFECT OF CLOSING YOUR ACCOUNT
When your Account is closed, you must:
•
•
•

Return or recycle all physical Cards;
Stop using your Account to make payments to others and cancel any such payments that may be automatic or recurring; and
Continue to pay at least the Minimum Payment Due each month until the total outstanding balance of your Account, including any
amounts which post after the Account's closure, is paid in full.

If your Account is a Co-Owned Account, the Account will be closed for all of you and any Participant.

Credit Information & Credit Reporting
This section describes how we use information about you that we obtain from credit bureaus, what information
we may provide about you to credit bureaus and how to dispute items on your credit bureau report.
OBTAINING YOUR CREDIT BUREAU REPORTS
We may obtain credit bureau reports and other information about you from time to time in connection with servicing or collecting your
Account, and/or to provide other services to you such as credit monitoring information. Upon your request, we will inform you whether or
not a credit bureau report was obtained and the name and address of the credit bureau that furnished the report. We may verify your age,
social security number, residence and other identifying information as permitted by applicable law.
REPORTING INFORMATION TO CREDIT BUREAUS
YOU AGREE THAT WE MAY REPORT INFORMATION ABOUT YOUR ACCOUNT TO CREDIT BUREAUS. LATE PAYMENTS, MISSED
PAYMENTS OR OTHER DEFAULTS ON YOUR ACCOUNT MAY BE REFLECTED IN YOUR CREDIT BUREAU REPORT.
If you believe that we have reported incorrect information about your Account to a credit bureau, you should contact us, or you can write
us at Lockbox 6112, P.O. Box 7247, Philadelphia, PA 19170-6112. Please include your name, address associated with your Account, the
email address associated with your Account, telephone number and a description of the information you believe is incorrect and why. If
available, please include a copy of the credit bureau report in question.

Communications
This section explains how we may contact you about matters relating to your relationship with us, and what
you should do to update us with your current contact information.
CONTACTING YOU
You understand and agree that we may always communicate with you using any technology or methods that are permitted by law and that
do not require your prior consent. You also agree that we may communicate with you using an automatic telephone dialing system and
through the delivery of artificial and/or prerecorded voice messages. Some of the ways we may contact you include calls, emails, text
messages, device-level notifications, and other electronic notification methods supported by the software you use to access your
Account. These communications may relate to upcoming due dates, missed or returned payments, other matters relating to the servicing
or collection of amounts due under this Agreement or any other agreement with us, and your relationship with us more generally. We may
communicate with you using any telephone numbers (including wireless, landline, and voice over IP numbers) or email addresses that you
give or have given to us. You understand and agree that anyone with access to your telephone, email account or Eligible Device may listen
to or read the messages that we leave or send you. You agree that we will not be liable for any charges that you incur in connection with
any communications that we send to you.
You agree to notify us immediately if you change telephone numbers or are no longer the subscriber or usual user of a telephone number
that you have given to us. You agree that we may monitor, record, retain and reproduce your telephone calls and other communications
with us. To the extent you have a right under applicable law, you can withdraw your consent to receive text messages through a telephone
network (e.g., SMS), calls to your Eligible Device, or calls through a telephone network, that are made with an automatic telephone dialing
system or that deliver a prerecorded and/or artificial voice message. To revoke your consent, you must contact us in accordance with this
Agreement.
NOTICES
Any written or electronic notice or communication we send to you will be effective when made available in your Apple Wallet, when sent to
you electronically, or, if you have withdrawn your consent to electronic communications, when mailed to the address associated with your
Account.

Page 14/19

CHANGES TO ACCOUNT INFORMATION
You must promptly notify us of any change to your name, mailing or email address, or phone number by contacting us. We may rely on
your email address or mail address as it appears on our records and any email address that you associate with your Apple ID for any and
all Account communications we send to you unless and until you notify us of any changes. We may also, in our sole discretion, update your
mailing address if we receive a notification of change from the U.S. Postal Service.

Other Important Information
This section provides additional information that is important to understanding your
rights and obligations for your Account.
GOVERNING LAW
This Agreement is entered into between you and us in the State of Utah and we extend credit to you from Utah. This Agreement and your
Account will be governed by and construed in accordance with federal law and any applicable laws of the State of Utah without regard to
rules concerning conflicts of law or choice of law.
ACCOUNT MANAGEMENT INFORMATION
Apple Wallet provides information that may help you manage your Account, reduce the interest you pay, and improve your financial health.
This information is not intended as financial advice or as a substitute for a financial advisor.
DELAY IN ENFORCING OUR RIGHTS
The failure by us to enforce at any time any of the provisions of this Agreement, to exercise any election or option provided in this
Agreement, to require at any time your performance of any of the provisions of this Agreement, or to enforce our rights under applicable
law will not in any way be construed as a waiver of such provisions, election, option, performance or rights.
SEVERABILITY
This Agreement is the complete and final expression of the agreement between us and you with respect to your Account, and this
Agreement may not be contradicted by any alleged oral agreement. Subject to the special rule in the Arbitration section, if any provision of
this Agreement is found to be invalid or otherwise unenforceable, or declared invalid or otherwise unenforceable by order of court, change
in applicable law, or regulatory authority, that provision will continue to be enforceable to the extent permitted by that court, law or
agency, and the remainder of that provision will no longer be considered part of this Agreement. All other provisions of this Agreement will
remain in full force and effect.
LANGUAGE
You agree that you can understand English-language communications and agree that the English-language version of all communications
will be binding. The section headings and descriptions in this Agreement are for convenience only and do not in any way limit or define
your or our rights or obligations in this Agreement. As used in this Agreement, the term “including” means “including, but not limited to.”
ASSIGNMENT
You may not sell, assign or transfer any of your rights or obligations under this Agreement. However, we may sell, assign or transfer your
Account or any of our rights and obligations under this Agreement, without restriction and without your prior consent. Any attempted sale,
transfer, or assignment by you without our prior written consent will be null and void.
SERVICE PROVIDERS
We may also use service providers in connection with providing your Account or services related to the Account. In doing so, we may
permit one or more of our service providers to exercise any of our rights, rely on any consents or permissions that you have granted to us,
and enforce any of your obligations on our behalf.
INTELLECTUAL PROPERTY RIGHTS TO APPLE CASH
All intellectual property rights, including all patents, trade secrets, copyrights, trademarks, and moral rights, in Apple Cash are owned by
Apple Inc., and all text, graphics, software, photographs and other images, videos, sound, trademarks, and logos are owned either by
Apple Inc. or its licensors. Nothing in this Agreement gives you any rights in respect of any intellectual property owned by Apple Inc., its
licensors or third parties, and you acknowledge that you do not acquire any ownership rights by using your Account.
INITIATING TRANSACTION DISPUTES WITH APPLE, INC.
Apple offers you or any Participant various ways to dispute Purchase Transactions of Apple goods or services directly with Apple in its
capacity as a merchant. This may include requesting a refund of some or all of the Purchase Transaction amount. This will not limit your
rights or any Participant’s rights to initiate a billing error directly with us.
MILITARY LENDING ACT
The provisions of this section apply to members of the Armed Forces and their dependents pursuant to the Military Lending Act:

Page 15/19

Statement of Military APR
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36%. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specific credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Oral Disclosures
Members of the Armed Forces and their dependents may hear important disclosures and payment information about this
Agreement and additional information about whether these protections apply to them by calling 877-255-5923.

ADDITIONAL DISCLOSURES
Vermont, Rhode Island and New York Residents: A credit bureau report may be requested in connection with your application. At your
request, we will tell you whether or not a credit bureau report was obtained and, if so, the name and address of the credit bureau that
furnished the report. We may also request credit bureau reports from time to time in connection with any update, renewal or extension of
the credit account, whenever we believe that such action is appropriate.
Married Wisconsin Residents: If you are married: (i) you confirm that this Account is being incurred in the interest of your marriage or
family; (ii) no provision of any marital property agreement, unilateral agreement, or court decree under the Wisconsin Marital Property Act
will adversely affect a creditor's interest unless, before the time credit is granted, the creditor is furnished a copy of that agreement or
decree or is given complete information about the agreement or decree; (iii) you understand and agree that we will provide a copy of this
Agreement to your spouse for his or her information. If the Account for which you are applying is granted, you will notify us if you have a
spouse by sending your name and your spouse's name and address to us at Lockbox 6112, P.O. Box 7247, Philadelphia, PA 19170-6112.
Maryland Residents: If you are a Maryland resident as of the date you accept this Agreement, as evidenced by your billing address, to the
extent, if any, that Maryland law applies to this Agreement and your Account and is not preempted by federal law, we elect to offer your
credit account under Subtitle 9 (Credit Grantor Open End Credit Provisions) of Title 12 of the Maryland Commercial Law Article.
All Residents: You promise us that you are not planning to file bankruptcy at the time of your application for your Account or when you
seek to share your Account.

Billing Rights Summary
The notice below describes the minimum rights you have under the Fair Credit Billing Act.
If you have a question or a dispute, contact us and we will try to resolve the matter in all cases.
YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR MONTHLY STATEMENT
If you think there is an error on your Monthly Statement, write to us at:
Lockbox 6112
P.O. Box 7247
Philadelphia, PA 19170-6112
In your letter, give us the following information:
•
•
•

Account information: Your name and the email address associated with your Apple Card Account.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a
mistake.

You must contact us:
•
•

Within 60 days after the error appeared on your Monthly Statement.
No later than 11:59 P.M. ET on the day prior to the date an automated payment is scheduled, if you want to stop payment on the
amount you think is wrong.

You must notify us of any potential errors in writing or electronically. You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

Page 16/19

While we investigate whether or not there has been an error:
•
•
•
•

We cannot try to collect the amount in question, or report you as delinquent on that amount.
The charge in question may remain on your summary, and we may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
•
•

If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We
will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not
pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If
you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR CREDIT CARD PURCHASES
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct
the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase must
have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to
you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that
access your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us at:
Lockbox 6112
P.O. Box 7247
Philadelphia, PA 19170-6112
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you
our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Page 17/19

Arbitration Provision
This section is an arbitration provision and contains important information that
affects your legal rights. PLEASE READ IT CAREFULLY.
This arbitration provision does not apply to service members and their dependents who are entitled to protection under the Military
Lending Act (10 U.S.C. § 987). If you would like more information about whether you are entitled to protection under the Military Lending
Act and whether this section applies to you, please call us toll-free at 877-255-5923.
This arbitration provision shall also apply to any Claims (as defined below) brought by or against Apple Inc. or any of its affiliates
(“Apple”).
ACKNOWLEDGMENT OF ARBITRATION
Credit is being extended to you and you are being provided access to and use of your Account on the basis of the inclusion of the
following arbitration provision. By accepting this Agreement or using your Account, unless you reject arbitration as provided below, you
acknowledge that YOU ARE GIVING UP THE RIGHT TO LITIGATE CLAIMS (AS DEFINED BELOW) AND THE RIGHT TO INITIATE OR
PARTICIPATE IN A CLASS ACTION. You hereby knowingly and voluntarily WAIVE THE RIGHT TO BE HEARD IN COURT OR HAVE A
JURY TRIAL on all Claims subject to this Agreement. You further acknowledge that you have read this arbitration provision carefully,
agree to its terms, and are entering into this Agreement voluntarily and not in reliance on any promises or representations whatsoever
except those contained in this Agreement.
HOW TO REJECT THIS ARBITRATION PROVISION
YOU MAY REJECT THIS ARBITRATION PROVISION BY CONTACTING US USING MESSAGES, CALLING US, OR WRITING TO US, AND
STATING THE FOLLOWING: (I) YOUR NAME; (II) THE EMAIL ADDRESS ASSOCIATED WITH YOUR ACCOUNT; (III) THE ADDRESS
ASSOCIATED WITH YOUR ACCOUNT; AND (IV) THAT YOU ARE EXERCISING YOUR RIGHT TO REJECT THIS ARBITRATION PROVISION
(A “REJECTION NOTICE”). YOUR REJECTION NOTICE MUST BE RECEIVED WITHIN 90 DAYS AFTER THE OPENING OF YOUR
ACCOUNT. IF YOUR REJECTION NOTICE COMPLIES WITH THESE REQUIREMENTS, THIS ARBITRATION PROVISION WILL NOT APPLY TO
YOU, EXCEPT FOR ANY CLAIMS SUBJECT TO PENDING LITIGATION OR ARBITRATION AT THE TIME YOU SEND YOUR REJECTION
NOTICE. ANY REJECTION NOTICE THAT COMPLIES WITH THIS PROVISION WILL APPLY TO BOTH US AND APPLE. IF OTHER PERSONS
ARE OBLIGATED ON OR PERMITTED TO USE YOUR ACCOUNT, A REJECTION NOTICE IS LIMITED TO ONLY THE PERSON SUBMITTING
THE REJECTION NOTICE. ANY OTHER PERSONS MUST SEND THEIR OWN REJECTION NOTICE. REJECTION OF THE ARBITRATION
PROVISION WILL NOT AFFECT YOUR OTHER RIGHTS OR RESPONSIBILITIES UNDER THIS ARBITRATION PROVISION OR THIS
AGREEMENT.
DEFINITIONS
For purposes of this arbitration provision, the following definitions apply:
•

•

“Claim” means any claim, dispute, or controversy (whether based upon contract; tort, intentional or otherwise; constitution;
statute; common law; or equity and whether pre-existing, present or future), including initial claims, counter-claims, cross-claims,
and third-party claims, arising from or relating to: (i) this Agreement, your Account or your relationship with us; (ii) any servicing of
your Account by our agents or service providers; (iii) advertisements, promotions or statements related to this Agreement or your
Account; (iv) your application for credit; (v) credit bureau reporting or debt collection on or related to your Account; and (vi) your
access to and use of your Account from or using any products or services provided by Apple Inc. and its affiliates.
“You” and “your” mean each and every person who is granted, accepts or uses your Account, except as otherwise provided in
this arbitration provision.

ARBITRATION
You or we may elect, without the other’s consent, to resolve any Claim by individual binding arbitration unless the Claim has been filed in
court and trial has begun or final judgment has been entered. Even if a Claim is litigated in court, you or we may elect arbitration of any
Claim made by a new party or any Claim later asserted by a party in that or any related or unrelated lawsuit. You or we may also elect
arbitration of a Claim that the parties initially opted to litigate in court if that Claim is later modified (including to be asserted on a class,
representative or multi-party basis or to seek different or additional relief).
Notwithstanding the foregoing, only a court and not an arbitrator may decide any dispute or controversy about the validity, enforceability,
coverage or scope of this arbitration provision, all of which are for a court and not an arbitrator to decide. However, disputes or
controversies about the validity or enforceability of this Agreement as a whole are for the arbitrator and not a court to decide.
JAMS (1-800-352-5267, jamsadr.com) will serve as the default arbitration administrator. Claims may also be referred to the American
Arbitration Association (“AAA”) (1-800-778-7879, adr.org). You may obtain copies of the current rules, forms, and instructions for
initiating an arbitration directly from JAMS or the AAA. Claims may also be referred to another arbitration administrator, if you and we
agree in writing, or to an arbitrator appointed pursuant to Section 5 of the Federal Arbitration Act, 9 U.S.C. §§ 1-16 (the “FAA”). You and
we agree that any arbitration proceedings initiated hereunder shall be kept confidential.
OTHER CLAIMS SUBJECT TO ARBITRATION
In addition to Claims made by or against either you or us, Claims made by or against anyone connected with you or us or claiming through
you or us (including any employee, agent, representative, affiliated company, predecessor or successor, heir, assignee or trustee in
bankruptcy) are subject to arbitration as described herein.
EXCEPTIONS
We agree not to invoke our right to arbitrate any individual Claim you bring in small claims court or an equivalent court with jurisdiction so
long as the Claim is pending only in that court.

Page 18/19

INDIVIDUAL CLAIMS ONLY
Claims may be submitted to arbitration on an individual basis only. Claims subject to this arbitration provision may not be joined or
consolidated in arbitration with any Claim of any other person or be arbitrated on a class basis, in a representative capacity on
behalf of the general public, or on behalf of any other person, unless otherwise agreed to by the parties in writing. Claims by or
against corporate affiliates will be considered a single claim. The arbitrator has no authority to award any relief not available in an
individual action in court or award any declaratory, injunctive or other relief primarily for the benefit of the general public. Further, unless
you and we both otherwise agree in writing, the arbitrator may award relief only in favor of your individual Claim. The arbitrator may not
award relief for or against any other person, whether directly or indirectly.
PROCEDURE
A single arbitrator will resolve the Claims. The arbitrator will be a lawyer with at least ten years of experience who is a former or retired
judge and will be selected by the parties; provided, however, that if the parties are unable to agree upon an arbitrator within seven (7)
days after delivery of the Demand for Arbitration, then the arbitrator will be appointed by the arbitration administrator. The arbitration shall
comply with the arbitration administrator’s rules (the Streamlined Arbitration Rules for JAMS and the Consumer Arbitration Rules for AAA)
in effect on the date the arbitration is filed, except where there is a conflict or inconsistency between the arbitration administrator’s rules
and procedures and this arbitration provision, in which case this arbitration provision will govern. The arbitration will be conducted in
English unless the parties otherwise agree in writing. Any in-person arbitration hearing for a Claim will take place within the federal judicial
district in which you live or at such other reasonably convenient location as agreed by the parties. The arbitrator will apply applicable
substantive law consistent with the FAA and will honor all claims of privilege and confidentiality recognized at law. All statutes of
limitations that would otherwise be applicable will apply to any arbitration proceeding. The arbitrator will not apply any federal or state
rules of civil procedure or evidence in matters relating to evidence or discovery. Except as otherwise provided in this arbitration provision,
the arbitrator will be empowered to grant whatever relief would be available in court under law or in equity. Any appropriate court may
enter judgment upon the arbitrator’s award. This arbitration provision is made pursuant to a transaction involving interstate commerce and
is governed by the FAA.
ADDITIONAL ARBITRATION AWARD; ATTORNEYS' FEES
If we make a final written settlement offer before the arbitrator is selected and the arbitrator rules in your favor for an amount greater than
that final offer, or if we do not make a final written settlement offer before the arbitrator is selected and the arbitrator rules in your favor on
the merits of your Claim, the arbitrator's award will include: (1) any money to which you are entitled, but in no case less than $10,000; (2)
twice the amount of your reasonable attorneys' fees, or the amount of attorneys' fees to which you are entitled under applicable law,
whichever is greater; and (3) your costs and expert and other witness fees. If we prevail in arbitration, we will not be entitled to recover our
attorneys' fees even when permitted to do so under applicable law.
ARBITRATION FEES
We will pay any arbitration fees (including the arbitrator’s fees and any filing, administrative, hearing or other fees charged by the
arbitration administrator) in connection with any Claims. You will be responsible for any other costs that you incur in connection with any
Claim unless applicable law provides otherwise. Any arbitration award will apply only to the specific case and cannot be used in any other
case except to enforce the award.
SURVIVAL
This arbitration provision shall survive payment of all amounts due pursuant to this Agreement, termination of your Account, any legal
proceeding to collect amounts due, any bankruptcy and any assignment or sale of this Agreement, your Account or any and all rights
thereunder. In the case of an assignment or sale of this Agreement, your Account or any and all rights thereunder, the buyer will be bound
by and may enforce the terms of this arbitration provision. If any portion of this arbitration provision is deemed invalid or unenforceable, it
will not invalidate the remaining provisions of this arbitration provision or this Agreement, except that if any part of the "Individual Claims
Only" provision is found in a court proceeding to be invalid or otherwise unenforceable with respect to a Claim (and that determination
becomes final after all appeals have been exhausted), then this arbitration provision (except for this sentence) will not apply to that Claim.

Page 19/19

